Thomas G. Saunders
+1 202 663 6536 (t)
+1 202 663 6363 (f)
thomas.saunders@wilmerhale.com

March 18, 2020
Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, NE
Washington, DC 20543
Re: Enzo Life Sciences, Inc. v. Becton, Dickinson and Company, No. 19-1097
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was docketed on March 3,
2020, and the response is currently due on April 6, 2020. On behalf of respondent Becton,
Dickinson and Company, we respectfully request a 30-day extension of time, to and including
May 6, 2020, in which to file a response to the petition.
We are requesting an extension due to the press of other business and the disruption
caused by the outbreak of COVID-19.
We appreciate your consideration of our request.
Sincerely,

Thomas G. Saunders

cc:

Justin Wilcox, Counsel for Petitioner (via electronic and first-class mail)
Noel J. Francisco, Solicitor General (via SupremeCtBriefs@USDOJ.gov and first-class
mail)

